U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 19, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States v. Taylor, No. 20-1459
Dear Mr. Harris:
The Court granted the petition for a writ of certiorari in this case on July 2, 2021. On behalf
of both parties, we respectfully request that the time for filing petitioner’s opening brief be
extended to and including September 7, 2021; and that the time for filing respondent’s brief be
extended to and including October 22, 2021. If those extensions are granted, petitioner’s reply
brief would be due 30 days after the filing of respondent’s brief (or at the time specified in Rule
25.3).
Counsel for both parties consent to these extensions of time.
Sincerely,
/s/
Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1459
USA
JUSTIN EUGENE TAYLOR

FRANCES H. PRATT
ASSISTANT FEDERAL PUBLIC DEFENDER
1650 KING STREET
SUITE 500
ALEXANDRIA, VA 22314
703-600-0800
FRAN_PRATT@FD.ORG

